   July 27, 2005




Health Care
Report on the DoD Patient
Movement System (D-2005-095)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ADUSD(TP)             Assistant Deputy Under Secretary of Defense for Transportation
                         Policy
AE                    Aeromedical Evacuation
CENTCOM               U.S. Central Command
GPMRC                 Global Patient Movement Requirements Center
JPTA                  Joint Patient Tracking Application
MRR                   Medical Readiness Review
OASD(HA)              Office of the Assistant Secretary of Defense (Health Affairs)
OEF                   Operation Enduring Freedom
OIF                   Operation Iraqi Freedom
PMR                   Patient Movement Request
TRAC2ES               U.S. Transportation Command Regulating and Command and
                         Control Evacuation System
USTRANSCOM            U.S. Transportation Command
                          INSPECTOR GENERAL
                         DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704



                                                                           July 27, 2005
MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, U.S. TRANSPORTATION COMMAND
               ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
SUBJECT: Report on the DoD Patient Movement System
          (Report No. D-2005-095)

       We are providing this report for your information and use. The Office of the
Assistant Secretary of Defense (Health Affairs) responded to this report. We considered
management comments on the draf? of this report when preparing the final report. The
complete text of the comments is in the Management Comments section of the report.
        Comments on the draft of this report conformed to the requirements of DoD
Directive 7560.3. Therefore, no additional comments are required.
       We appreciate the courtesies extended to the staff Questions should be directed
to me at (757) 872-4815 ext. 223 or Mr. Timothy J. Tonkovic at (757) 872-4763. See
Appendix B for the report distribution. The team members are listed inside the back
cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         \ Michael A. ~o$kph -
                                   Acting Assistant Inspector General
                                  for Readiness and Logistics Support
                Department of Defense Office of Inspector General
Report No. D-2005-095                                                       July 27, 2005
 (Project No. D2005-D000LF-0082.000)

                          DoD Patient Movement System

                                 Executive Summary

Who Should Read This Report and Why? Medical planners, transportation specialists,
and managers who are involved in the administration, implementation, and oversight of
the DoD patient movement system should read this report.
Background. This report discusses the aeromedical evacuation process from Operation
Enduring Freedom and Operation Iraqi Freedom theaters of operation. Aeromedical
evacuation is the transportation of patients under medical supervision to and between
medical treatment facilities by air transportation.

Results. For FY 2004, there were about 28,500 worldwide patient movement requests of
which approximately 11,350 (40 percent) represented the U.S. Central Command area of
operations. For our limited review of 53 patient movement requests from the U.S.
Central Command, the DoD patient movement system provided timely evacuation of
patients from the combat zone that were consistent with theater commander and
aeromedical patient movement priorities. Because of the timeliness of the patient
movements reviewed during our limited review and other ongoing initiatives such as the
Medical Readiness Review that may impact the patient movement system, we are
concluding our audit.

Management Comments and Audit Response. Although no comments were required,
the Office of the Assistant Secretary of Defense (Health Affairs) concurred with the audit
finding and conclusion. No additional comments are required. Management provided
comments and information that they believe are valid and would strengthen the report.
Although we found no reason to disagree with the additional information, the scope of
our audit work did not allow us to report on the issues raised. See the Finding section of
the report for a discussion of management comments and the Management Comments
section of the report for the complete text of comments.
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Criteria                                                                     2

Objectives                                                                   3

Finding
     Effectiveness of the Aeromedical Evacuation System from the Operation
        Enduring Freedom and Operation Iraqi Freedom Theaters of Operation   4

Appendixes
     A. Scope and Methodology                                                 8
     B. Report Distribution                                                  10

Management Comments
     Office of the Assistant Secretary of Defense (Health Affairs)           13
Background
    The primary mission of the DoD patient movement system is to safely transport
    U.S. military casualties from a combat zone to fixed medical treatment facilities
    and field hospitals in or out of the combat theater. Patients not expected to return
    to duty within the number of days established in the combat theater evacuation
    policy will normally be evacuated to the next medical operational zone as soon as
    medical authorities have determined that travel will not aggravate their medical
    condition. Other patients may be moved on a non-interference basis if the
    patient’s medical condition, lack of local care, and costs warrant the move.

    The Office of the Assistant Deputy Under Secretary of Defense for Transportation
    Policy (ADUSD[TP]) is responsible for establishing policies and providing
    guidance to DoD Components for efficient and effective use of DoD and
    commercial transportation resources. The DoD patient movement system uses
    DoD transportation resources to accomplish its mission.

    The Commander, U.S. Transportation Command (USTRANSCOM) is the single
    manager for inter-theater patient movement. Inter-theater patient movement
    evacuates patients to medical treatment facilities outside of the theater of
    operation by aeromedical evacuation (AE). AE is the movement of sick or
    injured personnel, under medical supervision, to appropriate medical treatment
    facilities and/or field hospitals by air transportation. The U.S. Air Force is the
    USTRANSCOM Component responsible for providing inter-theater AE.
    Commanders of outside-CONUS Combatant Commands are responsible for intra-
    theater patient movement, which moves patients to and between medical
    treatment facilities within a theater of operations and may involve surface
    vehicles, rotary, and fixed-wing aircraft. We included only inter-theater AE
    patient movements in this review.

    The Global Patient Movement Requirements Center (GPMRC) is an
    organizational element of USTRANSCOM that manages the movement of
    patients. The GPMRC integrates inter-theater and CONUS medical regulation
    services, mission requirements, clinical validation, and related activities that
    support patient movement requests (PMR). The GPMRC determines the mode of
    transport (airlift, sealift, and surface) that will be used to move a patient to a final
    destination. The GPMRC coordinates airborne patient movement requirements
    through the Air Force Air Mobility Command.

    To coordinate patient movements, the GPMRC uses the U.S. Transportation
    Command Regulating and Command and Control Evacuation System
    (TRAC2ES). Using TRAC2ES, the GPMRC and each Theater Patient Movement
    Requirements Center receives, consolidates, and processes patient movement
    requests to coordinate AE requirements with available airlift operations, health
    service support capabilities, and available bed space.



                                           1
Criteria
     DoD Directive 4500.9E, “Transportation and Traffic Management,”
     February 12, 2005, establishes DoD policy for transportation and traffic
     management. DoD Directive 4500.9E updated the November 17, 2003, directive
     concerning policy and responsibilities for operating the Defense transportation
     system. DoD Directive 4500.9E states that DoD transportation resources should
     be used for official purposes only. DoD transportation resources may be used to
     move non-DoD traffic only when the DoD mission will not be impaired and
     movement of such traffic is of an emergency or life saving nature, specifically
     authorized by statute, in direct support of the DoD mission, or requested by the
     Head of an agency of the Government.

     DoD Directive 6000.12, “Health Services Operations and Readiness,”
     January 20, 1998, establishes patient movement policy and assigns the
     Commander, USTRANSCOM responsibilities as the DoD single manager for
     patient movement, other than intra-theater patient movement. The Commander,
     USTRANSCOM is responsible for establishing and maintaining a system for
     medical regulating and movement.

     DoD Regulation 4515.13-R, “Air Transportation Eligibility,” April 9, 1998,
     implements DoD policies governing the use of DoD-owned or DoD-regulated
     aircraft and establishes criteria for passenger and cargo movement. Chapter 5,
     “Aeromedical Evacuation” of DoD Regulation 4515.13-R is used to determine
     eligibility for patient movement. Chapter 5 is not consistent with current
     guidance because it is based on a cancelled directive and predates current
     implementing guidance. We contacted the Office of the ADUSD(TP) and advised
     office personnel that Chapter 5 was superseded in 1998 when DoD Instruction
     6000.11 was published. We also advised ADUSD(TP) personnel that DoD
     Instruction 6000.11 was under revision. ADUSD(TP) personnel informed us that
     DoD Regulation 4515.13-R was also under revision and that patient movement
     policy and procedures in Chapter 5, if included, would be based on revised DoD
     guidance.
     DoD Instruction 6000.11, “Patient Movement,” September 9, 1998, establishes
     procedures for the movement of patients, medical attendants, and related patient
     movement items on DoD-provided transportation. It addresses the evacuation of
     patients through the Air Force fixed-wing AE system and the medical regulating
     of patients to appropriate locations of care. DoD Instruction 6000.11 also
     establishes AE patient priorities that are used by competent medical authorities to
     classify a patient as a candidate for patient movement.

     On October 29, 2004, the Department of Defense Office of Inspector General
     nonconcurred with proposed revisions to DoD Instruction 6000.11. We
     nonconcurred because the draft instruction delegated approval authority for
     non-DoD patient movement without evidence that the policy makers (that is,
     Secretary/Deputy Secretary of Defense) intended to delegate such authority. The
     Department of Defense Office of Inspector General recommended that



                                          2
    if changes to DoD policy were necessary, the appropriate directive(s) rather than
    DoD Instruction 6000.11 needs to be changed and all such changes were to be
    coordinated with the office(s) responsible for the applicable directive(s).


Objectives
    Our overall audit objective was to evaluate the DoD patient movement system
    that medically regulates and transports casualties to appropriate military treatment
    facilities for care and rehabilitation. Specifically, we assessed the capabilities,
    effectiveness, and performance of the system used to support the movement of
    U.S. military casualties from combat zones. We reviewed AE inter-theater
    patient movements from the U.S. Central Command (CENTCOM) area of
    responsibility that includes Operation Enduring Freedom (OEF) missions in
    Afghanistan and Operation Iraqi Freedom (OIF) missions in Iraq. See
    Appendix A for a discussion of the scope and methodology.




                                         3
                    Effectiveness of the Aeromedical
                    Evacuation System from the Operation
                    Enduring Freedom and Operation Iraqi
                    Freedom Theaters of Operation
                    For FY 2004, there were about 28,500 worldwide PMRs of which
                    approximately 11,350 (40 percent) represented the CENTCOM area of
                    operations. Because of the large number of PMRs originating in the
                    CENTCOM theater, we limited our survey effort to a review of AE patient
                    movements that originated from OIF or OEF. For the 53 PMRs reviewed,
                    the DoD patient movement system provided timely evacuation of patients
                    from the combat zone consistent with theater commander and AE patient
                    movement priorities. During the initial stages of our audit, we also
                    learned of other DoD initiatives that may directly or indirectly impact the
                    patient movement system. As a result of the timely patient movements
                    that we reviewed and the other DoD initiatives, we are concluding our
                    audit.


Inter-theater Aeromedical Evacuation
           Patient Regulating and Movement. The DoD patient movement system is
           designed to transport injured or recuperating patients to needed levels of medical
           care. A PMR is used to initiate patient movements to an appropriate medical
           treatment facility. We evaluated active duty PMRs from TRAC2ES to determine
           the scope and timing of patient movements from the OIF and OEF theater of
           operations to the U.S. European Command medical operational zone. Patients
           continue to receive medical care while waiting to be transported and while
           on-board an aircraft. A PMR includes the AE patient movement priority; patient
           demographics; administrative and clinical data; medications; patient movement
           item information 1 ; medical attendant information; and other information relevant
           to the transport of the patient.
           AE patient priorities are determined by a physician based on the patient’s medical
           need for care. The three categories of AE patient priority, as established in DoD
           Instruction 6000.11 are routine, priority, and urgent. A routine patient is one who
           requires AE movement but can wait for a regularly scheduled channel2 AE
           mission, a scheduled military airlift channel mission, or a commercially procured
           airlift service. A priority patient is one who requires movement within 24 hours
           to save life, limb, or eyesight. An urgent patient is one who requires movement




1
    Patient movement items are medical equipment and supplies required to support the patient during
    evacuation.
2
    A channel mission is a regularly scheduled mission that is flown over an established route.

                                                       4
as soon as possible to save life, limb, or eyesight. Immediate action is taken to
obtain suitable transportation to meet an urgent patient’s requirements. The
GPMRC considers the patient movement priority when processing the PMRs.

Timeliness of Patient Movements. We performed a limited review on 53 PMRs
and determined the length of time from when a patient was declared “medically
ready to travel” until the time of actual departure. We selected PMRs from
December 1, 2004, through January 24, 2005, for review. This time frame
included a mass casualty event in Iraq at the Mosul dining facility that resulted in
a demand surge on the AE system. The table below shows the average elapsed
hours from the time a patient was declared “medically ready to travel” to the time
of actual departure.


             Table. Medically Ready to Travel Until Time of Departure (In Hours)

                                                       Average Hours1

                  PMRs Reviewed               OIF                          OEF

 Routine2                18                   31.4                         33.2
 Priority3               19                   17.9                         23.8
 Urgent4                 16                    9.4                         14.1
 1
  The average hours are based on the 53 PMRs reviewed and should not be used to generalize
 to the 11,350 FY 2004 CENTCOM PMRs.
 2
  Routine- patient can wait for evacuation
 3
  Priority- life, limb, eyesight – move in 24 hours
 4
  Urgent- life, limb, eyesight – move as soon as possible


Thirty two of the 53 PMRs were for casualty events designated as OIF patient
movements to the U.S. European Command medical operational zone. Twenty
one of the PMRs were for casualty events designated as OEF movements to the
U.S. European Command medical operational zone. The analysis showed that
active duty personnel were being moved in a timely manner consistent with AE
patient movement priorities for the PMRs reviewed.

Medical Readiness Review. On March 29, 2004, the Under Secretary of
Defense for Personnel and Readiness and the Director, Program Analysis and
Evaluation established a medical readiness review (MRR) to provide a
comprehensive evaluation of work to be done to strengthen the DoD medical
readiness posture for the future. The MRR is examining how medical readiness
capabilities will be delivered in wartime and maintained in peacetime. Various
subgroups within the MRR are addressing planning factors involving casualty
estimation, modeling, and patient evacuation scenarios; taxonomy of care;
medical force structure requirements; and medical skills needed to satisfy
contingency operations. Patient movement is an integral part of the MRR
subgroups’ tasking. Personnel on the MRR subgroups are coordinating their
results with USTRANSCOM and other combatant commanders to determine the
resources necessary to support the medical readiness posture.

                                          5
    Patient Visibility. We were also apprised by representatives from Health Affairs,
    Office of the Surgeon General for Army, and the CENTCOM Command Surgeon
    of concerns with the TRAC2ES lack of patient visibility while patients are
    receiving in-patient medical care at military treatment facilities. TRAC2ES is a
    transportation logistics system and was not intended to continue to track patients
    once they have completed their USTRANSCOM flights and are admitted to a
    fixed medical or rehabilitation facility for care. As of February 1, 2005, the
    Assistant Secretary of Defense (Health Affairs) directed CENTCOM to begin
    using the Joint Patient Tracking Application (JPTA) to collect patient care
    information as the patient is moved between military treatment facilities. It also
    uses other medical information systems, such as TRAC2ES, to provide critical
    information about patients being treated in a theater of operations or transported
    to Europe or CONUS for continued care. The JPTA generates a variety of patient
    reports such as diagnosis, types of injuries, length of stay, number and types of
    patients, pending departures, and disposition status. JPTA will provide
    physicians, commanders, medical planners, administrators and other authorized
    users real-time updates on patient information such as patient location, status, and
    anticipated disposition. If implemented as planned, the JPTA should resolve
    concerns over in-patient visibility.


Conclusion
    For the PMRs reviewed, the DoD patient movement system provided timely
    evacuation of patients from the combat zone that were consistent with theater
    commander and AE patient movement priorities. Additionally, coordination and
    publication of revised patient movement guidance will provide DoD with a
    uniform and consistent policy for the movement of patients on DoD transportation
    assets.

    Senior DoD management has also initiated the MRR to identify the medical
    readiness posture for the future. The MRR is performing a comprehensive
    analysis of capabilities, financial resources, performance metrics, and casualty
    estimates to determine the future impact on the DoD medical readiness posture.
    The patient movement system is an integral part of the MRR analytical process
    and its results will aid DoD in determining future patient movement capabilities.
    Finally, the JPTA management initiative, if implemented as planned, is intended
    to provide updates on patients, such as their location, status, and disposition to
    physicians, commanders, planners, administrators and other authorized users.
    Due to the results of our limited review and ongoing management initiatives, we
    are concluding the audit.


Management Comments and Audit Response
    Office of the Assistant Secretary of Defense Health Affairs Comments.
    Although not required to comment, the Office of the Assistant Secretary of
    Defense (Health Affairs) (OASD[HA]) concurred with our report on the DoD
    Patient Movement System. The OASD(HA) resubmitted comments to a

                                         6
discussion draft of the proposed report stating that their comments were not
accepted in their entirety and included in the draft report. The OASD(HA)
believed the comments to be valid and that they would strengthen the report. The
OASD(HA) also requested that the comments be included in their entirety in the
final report.

The OASD(HA) commented that DoD policies governing air transportation and
medical evacuation are inconsistent and it would be advantageous to consolidate
policy and guidance under one DoD Directive and DoD Instruction. The
OASD(HA) also stated that it is difficult to obtain accurate information on
reimbursement to Health Affairs for funding the Transportation Working Capital
Fund and to differentiate airlift costs for patient movement on aircraft performing
joint air evacuation and transportation missions. The OASD(HA) also stated that
the Department may decide to explore efforts to improve tracking of medical
evacuation expenses. In regard to airlift requirements, the OASD(HA)
commented on increasing patient movement system reliance on the C-17 aircraft
to provide future air evacuation requirements. The OASD(HA) stated that it is
not known whether the C-17 aircraft can meet increased demand or patient
movement and continue to meet other mission requirements.

Audit Response. Management comments are responsive. We considered
OASD(HA) comments before issuing our draft report and included those changes
that were within the scope of our review. We do not disagree with the
OASD(HA) comments; however, the scope of our review did not enable us to
report on many of the issues raised in the OASD(HA) comments.

We recognize that revised guidance will provide DoD with a uniform policy for
patient movement on DoD assets. We also expanded the discussion that we were
unable to determine patient movement costs because costs were not centrally
tracked. Each Service has elements of patient movement costs built into the
operating budget, but a separate budget line item has never been established. We
did not address future patient movement airlift requirements in our review
because the Medical Readiness Review is addressing this issue.

We did not describe the Theater Patient Movement Requirements Center’s role in
the patient movement system. We limited our discussion to a broad overview of
the GPMRC that coordinates patient movement with the Theater Patient
Movement Requirements Centers. The draft of our report included a discussion
addressing management concerns about the lack of patient visibility in
TRAC2ES. We recognized that TRAC2ES is a transportation logistics system
that was not intended to track patients after they completed their USTRANSCOM
flights and are admitted to a fixed medical or rehabilitation facility for care.




                                     7
Appendix A. Scope and Methodology
   Work Performed. We originally announced the audit objectives to evaluate the
   DoD patient movement system and to specifically assess the capabilities,
   effectiveness, and performance of the system used to support the movement of
   U.S. military casualties from combat zones. During early audit coordination with
   the joint audit planning group, we learned that the Army Audit Agency planned to
   evaluate the Army’s role and capabilities to provide initial casualty evacuation
   and patient movement. These movements are intra-theater and are accomplished
   using ground transportation and rotary wing aircraft. Therefore, to avoid
   potential overlap, we limited our review to inter-theater AE fixed-wing missions.
   We identified patient movements in the USTRANSCOM TRAC2ES system and
   evaluated CENTCOM operational plans to determine the priorities and standards
   for patient movements from that theater.

   We were not able to determine total patient movement costs because management
   does not centrally track patient movement costs. Each Service has elements of
   patient movement costs built into their operating budget, and a separate patient
   movement budget line item has not been established.

   We identified a total of about 28,500 worldwide PMRs of which approximately
   11,350 (40 percent) represented movements from the CENTCOM area of
   operations for FY 2004 in TRAC2ES. For the survey phase, we reviewed 53
   active duty PMRs from December 1, 2004, through January 24, 2005, to
   determine the elapsed number of hours from the time a patient was declared
   “medically ready to travel” until the time of departure from the CENTCOM
   theater.

   We reviewed management identified concerns about the lack of patient visibility
   in TRAC2ES. We also attended Medical Readiness Review meetings. We
   reviewed patient movement guidance issued by DoD from January 1993 to
   November 2003 and obtained Service and Major Command specific guidance that
   discussed aeromedical evacuation. The Major Command and Service guidance
   was issued from December 1975 through July 2004.
   We visited the CENTCOM Command Surgeon’s office to obtain and review the
   CENTCOM operational plans. We determined CENTCOM’s plan to move
   patients, the number and types of patient to be moved, the theater guidelines and
   standards for movement, and the location of military treatment facilities within
   CENTCOM.

   We performed this audit from November 2004 through April 2005 in accordance
   with generally accepted government auditing standards.

   Limitations. We did not review the management control program because the
   AE system focuses on the readiness of the patient movement system and is
   designed to support wartime operations.

   Use of Computer-Processed Data. Computer-processed data from TRAC2ES
   was evaluated and used to determine the scope and timing of patient movements.
                                        8
Although inaccuracies and discrepancies were identified in the data, the data were
sufficient for survey purposes and will not adversely affect the survey results. We
did not use this data to statistically project any survey results.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Support Infrastructure Management high-risk area.

Prior Audit Coverage. No prior coverage has been conducted on the patient
movement system during the last 5 years.




                                     9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Central Command
Commander, U.S. Transportation Command

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform

                                          10
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        11
Office of the Assistant Secretary of Defense
Health Affairs Comments




                        13
14
      Final Report
       Reference




     Page 8




15
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support Directorate, prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Michael A. Joseph
Timothy J. Tonkovic
Robert J. Hanlon
Anna P. Martin
Danny O. Hatten
Mary Ann Hubbell
Tamika S. Ali
Monica L. Noell
